Audit of USAID/Democratic Republic of Congo’s
Monitoring and Reporting of Its Health Program

7-660-05-001-P

October 28, 2004




                   Dakar, Senegal
(This page intentionally left blank)
October 28, 2004

MEMORANDUM

FOR:           USAID/Democratic Republic of the Congo Director, Robert
               Hellyer

FROM:          RIG/Dakar, Lee Jewell III /s/

SUBJECT:       Audit of USAID/Democratic Republic of the Congo’s
               Monitoring and Reporting of Its Health Program
               (Report No. 7-660-05-001-P)


This memorandum is our final report on the subject audit. In finalizing this
report, we considered management’s comments on our draft report and included
them in Appendix II.

This report contains three recommendations to which you concurred in your
response to the draft report. Based on your plans in response to the audit
findings, management decisions have been reached on all three
recommendations. Recommendation number one is considered closed upon the
issuance of this report. However, the other two recommendations will remain
open until the planned actions are completed by the Mission. Please coordinate
final actions on recommendations number two and number three with USAID’s
Office of Management Planning and Innovation (M/MPI).

I appreciate the cooperation and courtesies extended to the members of our
audit team during this audit.




                                                                             1
(This page intentionally left blank)




                                       2
Table of   Summary of Results                                                   5
Contents
           Background                                                           6

           Audit Objective                                                      7

           Audit Findings                                                       7

                   Does USAID/Democratic Republic of the Congo monitor the
                   performance of its health program to ensure that intended
                   results are achieved?

                      More Consistent and Systematic
                      Approach Needed for Site Visits                           9

                      Improvement Needed in Partner
                      Oversight of SANRU Project                               11

           Our Evaluation of Management Comments                               14

           Appendix I – Scope and Methodology                                  17

           Appendix II – Management Comments                                   19




                                                                                    3
(This page intentionally left blank)




                                       4
Summary of   The objective of this audit was to determine whether USAID/Democratic
Results      Republic of the Congo (DRC) monitors the performance of its health program
             to ensure that intended results are achieved. (See page 7.)

             USAID/DRC made some good efforts to monitor its health program activities
             through September 30, 2003 and has continued to improve its efforts during
             the current fiscal period. Our review of the actual health results for 13
             performance measures reported in the Mission’s fiscal year (FY) 2004 Annual
             Report showed that more than half achieved 100 percent or greater of the
             planned results. Notwithstanding certain logistical difficulties associated with
             operating within the DRC, the Mission has engaged in developing structures to
             enhance the management, monitoring and reporting of its health program.
             These include recruiting a monitoring and evaluation specialist, and, for the
             first time, starting to implement a Performance Management Plan for FY 2004
             through 2008. (See pages 7 through 9).

             Nevertheless, despite these efforts, USAID/DRC did not have a system in
             place that provided for full management oversight and adequate reporting of its
             health program. Although the Mission had made some monitoring efforts, it
             did not systematically conduct visits to implementing partner sites, nor did it
             consistently document those visits it did make. Monitoring of project results
             and verifying data reported by implementing partners was only incidental to
             visits that were made. Without procedures in place to systematically and
             consistently monitor the health program activities, USAID/DRC cannot be
             fully assured that the program activities conducted by the implementing
             partners will lead to the achievement of the health strategic objective. We
             recommend that the Mission establish a schedule and procedures, including a
             checklist, for conducting site visits, as part of its Performance Management
             Plan. (See pages 9 through 11).

             Additionally, audit site visits conducted in June and July in the Bas-Congo and
             the Equateur regions of the DRC revealed supervision and monitoring at the
             partner level, and specifically for the Basic Rural Health III (SANRU III)
             project, to be deficient. Problems noted included incomplete records at the
             clinics, data submitted by the clinics not matching those maintained at SANRU
             headquarters, and lack of controls over USAID-funded equipment and medical
             supplies. This situation might lead to inaccurate data being reported to USAID
             and ensuing inappropriate programmatic decisions. Furthermore, program
             equipment and other resources may be unduly at risk. We recommend that the
             Mission implement procedures requiring supervision to be more
             comprehensively performed by the project’s implementing partner, and to
             report to the Mission regarding the supervisory efforts made in each quarter in
             its quarterly reports. (See pages 11 through 14).



                                                                                          5
Background   In fiscal year (FY) 2003 and prior years, USAID/Democratic Republic of the
             Congo (DRC) designed its health program to provide a package of key
             interventions to assist Government of Congo-designated health zones, focusing
             on prevention of morbidity and mortality among women and children. The
             Mission also supported national health initiatives, such as the campaign to
             eradicate polio. These activities were carried out as part of the Mission’s
             broader strategic objective of assisting the Congolese population in solving a
             wide variety of developmental problems following years of civil war.

             In December 2003, the Mission’s new strategic plan was approved and
             included provisions for the continuation of health activities through Strategic
             Objective 2 titled “Use of Key Health Services and Practices both in USAID-
             supported Health Zones and at the National Level Increased.” Subsequent to
             the approval of the strategic plan, a Performance Management Plan (PMP) was
             developed to describe the goals and expected program results for the 2004 to
             2008 period. According to the latest version of the PMP dated May 10, 2004,
             Strategic Objective 2 aims to increase the use of key health services and
             practices through five intermediate results, namely (1) increased availability of
             key health services and practices; (2) improved financial access to key health
             services; (3) enhanced quality of key health services; (4) increased awareness
             and practice of healthy behaviors; and (5) increased access to key HIV/AIDS
             prevention and mitigation services.

             In FY 2003, USAID/DRC funded the following five major health program
             activities:

             •   Basic Rural Health III (SANRU III), through Interchurch Medical
                 Assistance, Inc. (IMA) and its local partner, the Church of Christ of Congo
                 (ECC), for $25 million, for a period of 5 years (2001-2006), to strengthen
                 the capacity of 60 non-governmental organization-managed health zones
                 for priority primary health care intervention and support systems.

             •   Basic Health in the Kasais, through Catholic Relief Services (CRS), for
                 $8.6 million over 5 years (2002-2007), to strengthen capacity of 20 health
                 zones in the western and eastern Kasai regions.

             •   Integrated Heath and Nutrition in Bas-Congo, through CRS, for $1.3
                 million over 3 years (2000-2003), to revitalize vaccination activities in
                 three health zones in Bas-Congo.

             •   Training, Research, Information Management, And Community Based
                 Programs, through Tulane University/Kinshasa School of Public Health,
                 for $3.3 million over 4 years (2000-2004), to train key health professionals
                 in the principles and practices of public health, execute operations research
                 in support of partners conducting public health interventions, and support

                                                                                           6
                      the development of a national integrated infectious diseases surveillance
                      system.

                  •   Support and Care for People Living with HIV/AIDS, through Christian
                      Aid, for $2.3 million for FY 2002, with extension to 2005, to reinforce the
                      capacity of implementing local organizations and communities in the fight
                      against HIV/AIDS.

                  In FY 2003, USAID/DRC obligated approximately $14.5 million for these
                  health program activities.



Audit Objective   In accordance with its fiscal year 2004 audit plan, the Regional Inspector
                  General/Dakar performed this audit to answer the following audit objective:

                  Does USAID/Democratic Republic of the Congo monitor the performance
                  of its health program to ensure that intended results are achieved?
                  Appendix I contains a complete discussion of the scope and methodology of
                  the audit.



Audit Findings    USAID/Democratic Republic of the Congo (DRC) does not have a system in
                  place that provides for full management oversight of its health program.
                  Mission staff made some efforts to monitor program activities, including
                  performing some site visits and communicating with the program’s
                  implementing partners. Our review of the actual health results for 13
                  performance measures reported in the Mission’s fiscal year (FY) 2004 Annual
                  Report also showed that more than half (7 out of 13) or 54 percent achieved
                  100 percent or more of the planned results, while 23 percent (3 out of 13)
                  achieved between 75 and 99 percent of the planned results. However, there
                  were problems in monitoring the program which included the lack of a
                  systematic and consistent approach to site visits and other partner encounters
                  as well as a lack of a monitoring plan due to, until FY 2004, the lack of a
                  Performance Management Plan (PMP).

                  USAID/DRC made some good efforts to monitor its health program activities
                  through September 30, 2003 and has continued to improve these efforts during
                  the current fiscal period. Some of the more important endeavors of the health
                  team, in particular, and USAID/DRC, in general, are described in the following
                  paragraphs.

                  The health activity managers had regular health team meetings to discuss
                  program implementation issues and data reported by the implementing
                  partners. Additionally, they maintained ongoing communication with partners.

                                                                                              7
To monitor the programs in the field, some site visits were made and
documented. With regard to health activity data, indicator tables agreed-upon
with the partners and found in the partner quarterly reports were detailed,
showing unit of measure, description and relation to work-plan, targets, actual
results, and other comments.

In order to restructure and formalize program management, the Mission
recruited a performance monitoring specialist in 2003 to serve all strategic
objective teams. The specialist has been instrumental in developing a database
that will help integrate and facilitate reporting both by implementing partners
and the Mission. Additionally, a new health team leader has been brought in to
shore-up the team. Finally, the Mission attained a major milestone: the
Mission received approval for their PMP for health activities, which was under
development for several years and was being implemented at the time of the
audit.

In other worthwhile efforts to improve its health program, at the request of the
Mission, a field assessment of the SANRU project was performed by
USAID/Washington in 2003, after two years of implementation, with its goal
to inform the Mission whether SANRU’s program of support to health zones is
appropriate and manageable. The assessment team came up with several
valuable recommendations, most of which the Mission has applied to this
project’s strategy. Similarly, an assessment was performed between our two
audit fieldwork periods on the management and delivery of health services
conducted in Catholic Relief Services-assisted zones in the Kasais. The
purpose of this assessment was to determine the level of resources required to
effectively implement the activities outlined in the Mission’s new strategy, and
to help enhance the grantee’s performance. Several recommendations ensued,
which the Mission likely will apply to the health program.

With regard to assessing how well the Mission achieved its planned health
goals, we found that of the actual health results for 13 performance measures
in the Mission’s FY 2004 Annual Report more than half (7 out of 13) or 54
percent achieved 100 percent or more of the planned results, while 23 percent
(3 out of 13) achieved between 75 and 99 percent of the planned results.

Following are four examples of performance measures that achieved or
exceeded 100 percent of target. In “Other Immunization” DPT3 (a series of
immunizations that can prevent diphtheria, pertussis and tetanus) attained 56
percent coverage in USAID-assisted zones, compared to the national average
target for DPT3 of 40 percent. Socially Marketed Condoms units sold of
20,773,032 surpassed the planned 20 million units. Family Planning, with 87
clinics equipped and their staff trained to provide family planning services,
exceeded the target of 75 clinics. Polio Campaign coverage (the effort to
eradicate polio through immunization), which was the only health indicator
reported in the Mission’s strategic objective table, attained 100 percent of the
100 percent target. Mission reported in its FY 2004 Annual Report that the last

                                                                             8
cases of wild poliovirus in the DRC (28 cases) were reported in 2000 and that
since then no more have been reported. This was confirmed in a World Health
Organization report. These efforts show that the Mission steadily made
progress in managing its health program, notwithstanding certain logistical
difficulties associated with operating within the DRC.




              Photograph taken July 23, 2004 of the poor road conditions
              between Bolenge and Bikoro, illustrating the difficulties
              faced in delivering and monitoring health services in the DRC.

However, despite these efforts, we found that USAID/DRC did not have a
system in place that provided for full management oversight and adequate
reporting of its health program. The problems noted both at the Mission and
implementing partner levels are described below, with recommendations for
corrective action.

More Consistent and Systematic
Approach Needed for Site Visits

 Summary: USAID/DRC health staff performed some site visits, especially
 in regard to the launching of health campaign programs, accompanying
 visiting USAID specialists, and attending special health program events in
 the country. However, we found these site visits to be very few and not
 performed by the Mission in a systematic or consistent manner that would
 ensure adequate monitoring of the partners’ activities—contrary to USAID
 guidance. The inconsistency in site visits was a result of the lack of
 procedures providing guidance for such visits. As a result, the Mission
 cannot be fully assured that the partners are carrying out activities that
 contribute to the achievement of the Mission’s health strategic objective.


Although the health team staff conducted some site visits, we found the
numbers to be very few. Only ten trip reports evidencing site and other types
of visits were available over the past 3 years. Of these, four were in FY 2001,
two in FY 2002, three in FY 2003 (our principal year of focus) and one, so far,
in FY 2004. Our review of the site visit documentation that did exist showed

                                                                               9
that visits were made for a variety of reasons that did not necessarily include
any efforts to verify the validity of the data developed and reported by the
partners. For example, one trip on March 15 to April 5, 2003 was made to
accompany an acquisition specialist from another USAID mission, whose
scope of work for the visit was for the Central African Regional Program for
the Environment, although the trip included a visit to the SANRU III project.
In several instances, USAID/DRC staff participated in meetings or workshops
along with partner and government staff and officials. While these activities
are worthwhile and important, they only provide partial assurance of
management oversight.

USAID’s Automated Directives System (ADS) section E303.5.13 states that
site visits are an important part of effective award management and
recommends that reports of the visits be maintained in official files. Similarly,
ADS section 303.3.4.c indicates that the responsibilities of the CTO include
monitoring and evaluating the recipient and the recipient’s performance by
maintaining contact through site visits. Additionally, ADS section 203.3.5.3
states that reviewing partner data and comparing field records with central
records is an important part of assuring the quality of data used for reporting
purposes. It also recommends that such efforts be documented. Moreover,
U.S. Government Internal Control Standards require that important events be
properly documented.

We believe that site visits that include reviewing and verifying implementing
partners’ data are an important event in the overall monitoring process and
should be documented. The lack of consistent and documented site visits
occurred because the Mission had not developed specific procedures for
monitoring program activities. Such procedures would provide a framework
for conducting site visits to better ensure proper management oversight.
USAID/DRC health team staff and Program Office officials attributed the lack
of structured procedures to the lack of a PMP. Health team members also
indicated that, with the interim team leader being absent due to illness during
most of FY 2003, there were additional time constraints on their staff.

Without conducting timely and appropriate site visits that include
verification of data, the Mission cannot be fully assured that the partners are
carrying out activities that contribute to and ensure achievement of the health
strategic objective or that the data ultimately reported by the partners is
accurate. The Mission’s recently approved PMP does specify the need for
quarterly meetings with partners to discuss general program management and
technical issues. Also the PMP states that random checks of partner data can
be integrated with site visits. However, the PMP does not provide specific
procedures or requirements for conducting and documenting site visits that
include assuring the accuracy and validity of the data. Furthermore, without
formal key encounters with implementing partners, important program
information may not be available to Mission management, and would
ultimately be lost if health team staff were to leave USAID.

                                                                             10
To address the lack of consistent procedures during site visits that would
ensure systematic monitoring of program activities, we make the following two
recommendations.

       Recommendation No. 1: We recommend that USAID/DRC
       create a schedule of site visits to be conducted for each
       partner implementing health program activities and
       incorporate the schedule in the Performance Management
       Plan.

       Recommendation No. 2: We recommend that USAID/DRC
       develop procedures to monitor health program activities
       that would include a checklist specifying the purpose and
       activities to be conducted during each scheduled site visit.

Improvement Needed in Partner
Oversight of SANRU III Project

 Summary: SANRU headquarters staff performed and documented some
 supervisory visits to health zone offices and local clinics as required by the
 terms of the cooperative agreement. However, problems found during
 audit visits to four health zone offices and six local clinics indicated that in
 some cases, visits were infrequent and when made, the extent of oversight
 was inadequate and insufficient. Problems included incomplete and
 inaccurate documentation of health zone office or clinic activities, lack of
 follow-up on problems noted during previous visits and poor controls over
 USAID-funded equipment and supplies, yielding an overall error rate of
 58.7 for the controls tested. As a result, data reported to USAID/DRC
 contained errors and USAID-funded equipment and supplies were at risk.



In its quarterly reports submitted to USAID/DRC, SANRU headquarters
reported on the number of supervisory visits made to health zone offices. At
the four health zone offices we visited—Nselo, Sona-Bata, Bikoro, and
Bolenge—records documented supervisory visits made by SANRU
headquarters staff. Additionally, records maintained at the health clinic level
documented supervisory visits made by either health zone office or SANRU
headquarters staff. However, even though the project implementation plan
specified that each health clinic would receive at least one supervisory visit per
month, records at six health clinics showed visits occurred less frequently. For
example, during FY 2003, there were only four visits each for Nselo and Sona-
Bata health zone offices, and three visits each for Bolenge and Bikoro health
zone offices, instead of the planned 12 each.



                                                                               11
Supervisory visits were documented in a notebook at the clinic, in which basic
visit information, such as the date and staff involved, was recorded. This
notebook formed the basis for a form that summarized these visits in the
quarterly reports submitted to USAID/DRC. The notebook also provided the
staff conducting the visit opportunities to describe any weaknesses or problems
found during the visit.

However, we noted that the notebooks did not show that any follow-up had
been performed to determine if actions had been taken to address the
previously identified problems. For example, at Sona-Bata, documentation of
a visit made on April 17, 2003 noted that the data relating to birth control
activities was not accurately reported, yet the notebook did not subsequently
indicate how this issue was resolved. On the other hand, we observed that
certain issues also noted in the notebook, such as the lack of a list of essential
drugs and the non-posting of the monthly activity plan, had been resolved but
not mentioned subsequently in the notebook.

The health zone offices were also responsible for collecting monthly data on
health clinic and other program activities conducted throughout the zone, as
well as aggregating this data on a quarterly basis. The quarterly reports were
provided to SANRU headquarters, which then used the data to report to
USAID/DRC. Yet we noted that the health zone offices had not maintained
adequate documentation to support their monthly reports. For example, at the
Bikoro health zone office, reports from 3 of 40 health clinics were missing for
September 2003, and reports from 2 of 40 health clinics were missing for
August 2003.

During our site visits of four health zone offices and six clinics within these
zones we noted many errors regarding record maintenance and deficiencies in
control over supplies and equipment in the SANRU III project. An error rate
of over 58 percent was obtained from our review of 92 judgmentally selected
health statistics, equipment and supplies data at these locations. Data from
clinic records were compared to those reported to the heath zone offices, and
similarly those from the health zone offices were compared to data submitted
to the national office of the implementing partner and used for reporting to
USAID. For health equipment and supplies, the physical inventory was
compared to recorded documentation and other procedures were performed to
check compliance with the cooperative agreement. The review results are
summarized in the following table.

                    Bas-Congo Region                 Equarteur Region
                           Sona-     Total
                  Nselo     Bata     Bas-    Bikoro     Bolenge     Total
                  Health   Health   Congo    Health      Health   Equarteur   Total
                  Zone     Zone     Region    Zone       Zone      Region     Tested
 Items Tested      14        12       26       36         30         66         92
 Errors Noted       6        5       11       24          19         43        54
 Error Rate (%)    42.9     41.7     42.3     66.7       63.3       65.2       58.7


                                                                                       12
First, we found discrepancies between the monthly data sheets maintained by
the health zone offices and their quarterly aggregated figures reported to
SANRU headquarters. For example, at the Bolenge health zone office, the
report for the quarter ending September 30, 2003 showed an average monthly
consumption of 1,650 units of one particular drug for the quarter. However,
this figure was not the average for the quarter but rather the average only for
the month of September.

We also found discrepancies between the figures included in the local clinics’
reports to the health zone office and the clinics’ original records. For instance,
at the Kalamba health clinic, the register recording pre-school consultations in
June 2004 showed 39 consultations, but the clinic reported 57 to the health
zone office.

Finally, we found instances of poor controls over USAID-funded supplies and
equipment.      There were equipment—including bicycles, gas and solar
refrigerators, and solar lights—at two health zone offices that were not
included in the inventory maintained by SANRU headquarters. Additionally,
the quantity of some medical supplies and drugs maintained in medical depots
did not reconcile with the amounts shown on the depot stock cards. For
example, the stock card for the drug Doxicycline showed 1,736 units whereas
the inventory count was 1,708; for the drug Metazole, the stock cards showed
961 units whereas the count was 951. Also, project equipment provided by
USAID was not properly identified and labeled with the USAID logo. At
Wendji Secli Clinic, for instance, we found a freezer not labeled with USAID
logo.

USAID’s ADS 303.5.13 incorporates by reference regulations contained in
Title 22, Volume 1 of Code of Federal Regulations (CFR), Part 226 governing
the administration of assistance to non-governmental organizations such as
those implementing the SANRU III project. Specifically, the CFR states that
recipients are responsible for managing and monitoring each project, program,
sub-award, function or activity supported by the award. Accordingly, we
believe that the implementing partner is responsible for monitoring and
providing oversight of all of its activities and interventions to ensure maximum
impact on the health population in the DRC. As such, we expect that
accomplishments of project activities would be systematically monitored via
internal systems built into project management procedures. These procedures
include continuous supervision and training of health center staff, Village
Health Committee meetings, and review of health clinic monthly activity
reports.

These discrepancies indicate a lack of appropriate attention paid to reporting
accurate and correct data from the clinic level up to the health zone office, onto
SANRU headquarters and ultimately to USAID/DRC.


                                                                              13
                 These problems occurred because of inadequate monitoring and oversight of
                 clinics by health zone offices and of the health zone offices by SANRU
                 headquarters. Although some procedures for supervisory visits had been
                 developed by SANRU, these procedures focused more on reviewing the day-
                 to-day operations of the clinics and health zone offices. The procedures did
                 not address a more comprehensive or complete approach to oversight. They
                 did not, for instance, contain guidance or otherwise suggest that activities such
                 as verifying data back to source documents or reports be conducted as part of a
                 supervisory visit. Similarly, no guidance was provided for ensuring that
                 inventories of equipment and supplies as recorded by SANRU were correct
                 and corresponded to the centers’ records, nor were any mechanisms in place to
                 ensure that follow-up occurred after weaknesses were identified.

                 As a result of inadequate supervision, inaccurate data may be reported to
                 USAID leading to inappropriate programmatic decisions by USAID
                 management. Additionally, program resources and equipment may be at risk.
                 To address this issue, we are making the following recommendation.

                        Recommendation No. 3: We recommend that USAID/DRC
                        develop procedures requiring periodic and comprehensive
                        supervisory visits be performed by its Basic Rural Health
                        III project implementing partner and that discussions on
                        the nature and findings of the supervisory visits be included
                        in the partner’s quarterly reports to USAID/DRC.



Our Evaluation   In response to the draft report, USAID/Democratic Republic of the Congo
                 (USAID/DRC) concurred with all of the findings and recommendations in the
of Management
                 draft audit report. Based on appropriate action taken by the Mission,
Comments         management decisions have been made on all recommendations and
                 Recommendation No. 1 is considered closed upon the issuance of this report.
                 However, Recommendations No. 2 and No. 3 will remain open pending final
                 corrective action by the Mission. The attachments to management comments
                 are not included in this audit report.

                 Recommendation No. 1 recommends that the Mission create a schedule of site
                 visits to be conducted for each partner implementing health program activities
                 and incorporate the schedule in the Performance Management Plan (PMP).
                 The Mission, in coordination with the implementing partners, has developed a
                 schedule of site visits for fiscal year 2005, based on the reviewed and approved
                 PMP. In addition to providing specific dates for the monitoring visits, the
                 schedule also indicates the health activity partners to be visited, and the
                 locations and the purpose of the visits as well. We believe that, although it
                 would also be useful for the Mission to specify when trip reports would be due
                 after each site visit, the Mission has adequately acted on this recommendation,
                 and it is considered closed upon the issuance of this report.

                                                                                              14
Recommendation No. 2 states that the Mission should develop procedures to
monitor health program activities that would include a checklist specifying the
purpose and activities to be conducted during each scheduled site visit. The
Mission, in response, has developed a standard ‘field visit checklist’ specifying
the purpose and activities to be conducted during each scheduled site visit by
the USAID Health officials. However, we believe to fully act on this
recommendation, the Mission needs to develop administrative procedures
(usually in the form of a Mission Order) to monitor health program activities
that incorporate the checklist and requires Mission employees to use it in
performing the appropriate control activities during site visits.            This
recommendation will remain open pending final action by the Mission.

Recommendation No. 3 recommends that the Mission develop procedures
requiring periodic and comprehensive supervisory visits be performed by its
Basic Rural Health III project implementing partner and that discussions on the
nature and findings of the supervisory visits be included in the partner’s
quarterly reports to USAID/DRC. The Mission, in response, has written a letter
requiring this implementing partner to develop procedures for, and perform,
periodic and comprehensive supervisory visits. The Mission also scheduled a
meeting with the implementing partner to discuss this requirement. We
believe that, while the Mission is on the right path, actual procedures have to
be developed and ready for implementation in order to close the
recommendation. This recommendation also will therefore remain open
pending final action by the Mission.




                                                                             15
(This page intentionally left blank)




                                       16
                                                                                   Appendix I



Scope and     Scope
Methodology
              The Regional Inspector General/Dakar conducted this audit in accordance with
              generally accepted government auditing standards. The purpose of the audit
              was to determine whether USAID/Democratic Republic of the Congo
              (USAID/DRC) monitors the performance of its health programs to ensure that
              the intended results are achieved.

              The audit was conducted at USAID/DRC in Kinshasa from June 22 to July 2
              and from July 19 to July 30, 2004. For discussions and review of program
              documentation and assets, we visited the offices of three implementing
              partners: Tulane University/Kinshasa School of Public Health (KSPH),
              Interchurch Medical Assistance, Inc/The Protestant Church of Congo
              (IMA/ECC) for the SANRU III activities (including its medical warehouse
              annex on its premises and its main supplies warehouse in Kinshasa), and
              Catholic Relief Services (CRS), also located in Kinshasa, and a satellite office
              of CRS located in Kisantu in the Bas-Congo region. We also made site visits
              to four health zone offices and six clinics within those zones. These health
              zone offices and clinics, in which SANRU III (IMA/ECC) and CRS intervene,
              are administered by the DRC’s Ministry of Health (MOH).

              During the site visits to the health zone offices we discussed project
              administration with the officials in charge and reviewed supporting
              documentation for the data reported to SANRU and CRS that were in turn used
              in health zone offices’ quarterly reports to USAID/DRC.        Similarly, we
              reviewed the data reported by Tulane University/KSPH, as well as tested their
              student admissions and graduation procedures against the established criteria.
              At SANRU (IMA/ECC) headquarters and health zone offices, we also
              observed the inventories, comparing the physical stocks to the records of
              medicines, medical supplies, and other program equipment supplied by
              SANRU and held at these offices for distribution to the clinics. We acted
              similarly at the clinics, with emphasis on the project supervision and
              monitoring by SANRU and MOH officials as well as review of the detail
              support for data reported to the health zone offices.

              We assessed the management controls of the program using USAID guidance
              including the Automated Directives System, Mission reports and other internal
              policies and procedures. The audit scope focused on examining the procedures
              used by the Mission and the selected implementing partners to monitor health
              program activities. This included reviewing reports prepared by the Mission
              and partners, reviewing and tracking indicators back to a variety of source
              documents, and visiting partner offices and field sites to review documentation
              and observe activities. It also included reviewing the Mission’s achievement

                                                                                          17
of its reported results as compared to expected results for fiscal year (FY)
2003.

Methodology

While conducting fieldwork, we performed limited tests of compliance with
USAID procedures regarding results reporting and program monitoring at the
Mission level. To verify the accuracy of performance indicator data reported
to USAID/Washington in the FY 2004 Annual Report (for activities conducted
in FY 2003), we judgmentally selected verifiable health program data from the
Annual Report and traced the reported data back to reports submitted by the
implementing partners. We then traced the partners’ data back to their
supporting documentation. Our verification included examining source
documents and electronic and manual records.

To determine the extent to which program results had been achieved, we
compared the actual FY 2003 results for the single performance measure
reported at the strategic objective level to the planned results for the same year
contained in the Mission’s Performance Management Plan. We also compared
data in the Annual Report for 11 other performance measures (12 data
variables) against the partners’ targets approved by the Mission and the
Government of Congo’s and International Health Organizations’ expected
achievement levels for certain health indicators.

We also interviewed responsible personnel at the USAID Mission in Kinshasa
as well as at selected implementing partners’ offices and field sites concerning
program activities, monitoring efforts and data accuracy issues. During
partners’ site visits, we selected controls and project related data from their
records for testing on a judgmental basis, depending on whether it was the
partner’s head office, a health zone office or a clinic.

In assessing the accuracy of the data, we used a threshold of one percent for
transcription accuracy and five percent for computation accuracy.




                                                                              18
                                                                                      Appendix II


Management
Comments


                                      EMBASSY OF THE
                                 UNITED STATES OF AMERICA


                               Agency for International Development
                                               Kinshasa




                                      MEMORANDUM

 Date :      October 7, 2004

 To   :      Lee Jewel III, RIG/Dakar

 From :      Mikaela Meredith, Acting Director, USAID/DRC /s/

 Subject     Audit of USAID/Democratic Republic of the Congo’s Monitoring and Reporting of Its
             Health Program (Report No. 7-660-04-00X-P)

 Reference: RIG/Dakar Memo dated 8/31/04

 USAID/DRC would first like to express its gratitude for the time and effort the RIG/Dakar staff
 dedicated to this audit. It has been very useful in identifying certain weaknesses in the overall
 management of the Health Program in Congo. We fully concur with the draft audit findings and the
 three recommendations.

 Over the course of the last few months, USAID/DRC has taken the following steps to address the
 recommendations before the issuance of the final audit report:

 Recommendation No. 1: We recommend that USAID/DRC create a schedule of site visits to be
 conducted for each partner implementing health program activities and incorporate the schedule in
 the Performance Management Plan.

 Action Taken: Mission’s new Health Office Director Aleathea Musah arrived to post on June 22,
 2004. She closely worked with RIG/Dakar auditors while they were performing the audit in
 Kinshasa. In coordination with the implementing partners, she has developed a schedule of site
 visits based on the reviewed and approved PMP. A copy of site visit schedule is attached for
 RIG/Dakar’s records.


                                                                                              19
                                               -2-


We believe that necessary action has been taken to resolve this recommendation and request
RIG/Dakar close Recommendation No. 1 accordingly.

Recommendation No. 2: We recommend that USAID/DRC develop procedures to monitor health
program activities that would include a checklist specifying the purpose and activities to be
conducted during each scheduled site visit.

Action Taken: In accordance with the audit recommendation, Mission has developed a standard
‘field visit checklist’ specifying the purpose and activities to be conducted during each scheduled
site visit by the USAID Health officials. A copy of ‘Checklist’ is attached for RIG/Dakar’s records.

We believe that necessary action has been taken to resolve this recommendation and request
RIG/Dakar close Recommendation No. 2 accordingly.

Recommendation No. 3: We recommend that USAID/DRC develop procedures requiring periodic
and comprehensive supervisory visits be performed by the implementing partner, SANRU
(IMA/ECC) and that discussions on the nature and findings of the supervisory visits be included in
the partner’s quarterly reports to USAID/DRC.

Action Taken: In compliance with this audit recommendation, Mission’s Health Officer Aleathea
Musah has written a letter dated 9/23/04 to SANRU Project Director Leon Ngoma Kintavdi
requiring SANRU to develop procedures for and perform periodic and comprehensive supervisory
visits. A meeting with SANRU officials has been scheduled on October 18, 2004. A copy of letter
is attached for RIG/Dakar’s records.

We believe that necessary action has been taken to resolve this recommendation and request
RIG/Dakar close Recommendation No. 3.

Please advise the mission of your decision on the above recommendations at the earliest
opportunity. If you require any additional information, please let us know.




                                                                                                20
